Report No. DODIG-2012-039              January 13, 2012





        Summary Report on DoD's Management of 

           Undefinitized Contractual Actions

Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (571) 372-7469.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

               Department of Defense Office of Inspector General
               Office of the Deputy Inspector General for Auditing
               ATTN: Audit Suggestions/13F25-04
               4800 Mark Center Drive
               Alexandria, VA 22350-1500




Acronyms and Abbreviations
ACC-RSA                       Army Contracting Command-Redstone Arsenal
DFARS                         Defense Federal Acquisition Regulation Supplement
DPAP                          Defense Procurement and Acquisition Policy
ESC                           Air Force Electronic Systems Center
FAR                           Federal Acquisition Regulation
FPDS-NG                       Federal Procurement Data System-Next Generation
GAO                           Government Accountability Office
IG                            Inspector General
MCSC                          Marine Corps Systems Command
NAVAIR                        Naval Air Systems Command
PNM                           Price Negotiation Memorandum
SMC                           Air Force Space and Missile Systems Center
UCA                           Undefinitized Contractual Action
U.S.C.                        United States Code
                                    INSPECTOR GENERAL
                                     DEPARTMENT OF DEFENSE
                                     4800 MARK CENTER DRIVE
                                  ALEXANDRIA, VIRGINIA 22350-1500




                                                                                 January 13,2012

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS
               UNDER SECRETARY OF DEFENSE (COMPTROLLER)/
                 CHIEF FINANCIAL OFFICER
               ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL
                 MANAGEMENT AND COMPTROLLER)
               NAVAL INSPECTOR GENERAL
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Summary Report on DoD's Management ofUndefmitized Contractual Actions
        (RepOlt No. DODIG-2012-039)

We are providing this report for review and comment. DoD contracting personnel did not
consistently comply with statutory and DoD requirements for managing undefinitized contractual
actions, resulting in the Government assuming additional risk in the award and negotiation
process and possibly paying more profit than necessary. This summary report is the sixth and
final report in a series of reports and is part of a congressionally mandated periodic review of
DoD use ofundefinitized contractual actions. We considered management comments on a draft
of the report in preparing the final report.

DoD Directive 7650.3 requires that all recommendations be resolved promptly. The comments
were partially responsive. The Director, Defense Procurement and Acquisition Policy's,
response to Recommendation 2 did not indicate agreement or disagreement, planned corrective
actions, or a suspense date. Therefore, we request additional comments from the Director,
Defense Procurement and Acquisition Policy, by March 13, 2012.

Please provide comments that conform to the requirements of DoD Directive 7650.3. If
possible, send management comments in portable document format (.pdf) to audacm@dodig.mil.
Copies of management comments must have the actual signature of the authorizing official for
your organization. We cannot accept the / Signed / symbol in place of the actual signature. If
you arrange to send classified comments electronically, you must send them over the SECRET
Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at (703)   604~
9077 (DSN 664-9077).



                                           O~-..L00 td~c.aIU~
                                           t1'.acqt&En~ L. Wicecarver
                                             Assistant Inspector General
                                             Acquisition and Contract Management
Report No. DODIG-2012-039 (Project No. D2009-D000CG-0248.005)                         January 13, 2012

               Results in Brief: Summary Report on DoD’s
               Management of Undefinitized Contractual Actions

               What We Did                                   Acquisition Policy requirements for
                                                             obligating funds;
Public Law 99-591, section 908(b) requires the
                                                         • properly justify the issuance of 60 UCAs
DoD Inspector General to periodically audit
                                                             because they did not adequately describe the
undefinitized contractual actions (UCAs) and
                                                             necessity of a UCA to meet requirements;
submit a report to Congress. This is a summary
of five reports discussing DoD compliance with           • adequately prepare authorization requests to
section 2326, title 10, United States Code.                  issue 59 UCAs because they did not clearly
                                                             define UCA approval delegations or
We reviewed a nonstatistical sample of                       adequately address requirements in the
251 UCAs with a total not-to-exceed value of                 authorization requests; and
about $15 billion awarded by the Army                    • adequately support the determination of price
Contracting Command-Redstone Arsenal, Naval                  reasonableness for 15 UCAs because
Air Systems Command, Marine Corps Systems                    personnel were unable to provide
Command, Air Force Electronic Systems                        documentation to support fair and reasonable
Center, and Air Force Space and Missile                      pricing.
Systems Center from FY 2004 through FY 2009               As a result, DoD assumed additional cost risk
to determine whether contracting personnel                and may have paid excessive profit and more
complied with the restrictions of the United              than fair and reasonable prices.
States Code and whether they appropriately
justified and definitized UCAs at reasonable
prices.                                                  What We Recommend
                                                         Defense Procurement and Acquisition Policy
What We Found                                            personnel should revise the Defense Federal
                                                         Acquisition Regulation Supplement Procedures,
 DoD contracting personnel did not consistently          Guidance, and Information 217.74 to provide
 comply with statutory and DoD requirements              additional guidance for managing UCAs.
 for managing UCAs for 216 of the 251 UCAs
 that we reviewed. DoD contracting personnel
 did not:                                                Management Comments and
• definitize 132 UCAs within the 180-day time            Our Response
    frame because of inadequate contractor
                                                         The Director, Defense Procurement and
    proposals, staffing shortages, and changing
                                                         Acquisition Policy, partially agreed with our
    Government requirements;
                                                         recommendations and stated that revisions to the
• adequately support their profit determination          weighted guidelines were under review, but did
    for 118 UCAs because they did not                    not indicate agreement or disagreement, specific
    adequately document their consideration of           planned corrective actions, or a date when
    reduced cost risk or the inputs used to create       corrective actions will be completed. Therefore,
    the profit objective;                                we request that the Director, Defense
• obligate funds within allowable limits for             Procurement and Acquisition Policy, provide
    109 UCAs because they miscalculated the              additional comments. Please see the
    obligation amount and decreased the not-to-          recommendations table on the back of this page.
    exceed value without adjusting the amount
    obligated or they did not take steps to comply
    with the Office of Defense Procurement and

                                                     i
Report No. DODIG-2012-039 (Project No. D2009-D000CG-0248.005) January 13, 2012



Recommendations Table

       Management               Recommendations           No Additional
                               Requiring Comment        Comments Required
Director, Defense                           2                    1
Procurement and Acquisition
Policy

Please provide additional comments by March 13, 2012.




                                       ii
Table of Contents
Introduction	                                                                       1

       Audit Objectives                                                             1
       Legislation and Congressional Report Requirement                             1
       Background on UCAs                                                           1
       Contracting Activities Visited                                               3
       Reporting on DoD UCA Use                                                     5
       DoD UCAs Reported to DPAP                                                    5
       Review of Internal Controls Over UCA Use                                     6

Finding. Inconsistent Management of Undefinitized Contractual Actions               7

       UCA Deficiencies                                                             7
       Untimely Definitization                                                      8
       DoD Contracting Personnel’s Noncompliance With Requirements to Reflect
              the Impact of the Undefinitized Period on Allowable Profit           11
       DoD Contracting Personnel Generally Complied with Obligation Limitations    14
       DoD Contracting Personnel Did Not Obligate Funds in Accordance With 2008
              DPAP Memorandum                                                      16
       Improper Justification to Issue a UCA                                       16
       UCA Authorization Requests Not Sufficiently Supported                       18
       DoD Contracting Personnel Adequately Documented Fair and
        Reasonable         Prices                                                  20
       Impact of Revised DPAP Requirements on Compliance                           20
       Corrective Actions Taken in Response to Contracting Activity Audits         23
       Conclusion                                                                  23
       Recommendations, Management Comments, and Our Response                      23

Appendices
     A. 	Scope and Methodology                                                     26
            Universe and Sample Information                                        27
            Review of Documentation and Interviews                                 27
            Use of Computer Processed Data                                         28
            Use of Technical Assistance                                            28
            Prior Coverage                                                         29
     B. August 29, 2008, Office of Defense Procurement and Acquisition 	           30
            Policy Memorandum
     C. Letter Contracts Issued and Not-to-Exceed Amounts	                         32
            FY 2004 Through June 9, 2011
     D. Definitization Modifications Issued and Definitization Amounts on Letter
            Contracts for FY 2004 Through June 9, 2011                             33

Management Comments
     Defense Procurement and Acquisition Policy 	                                  34
Introduction
Audit Objectives
This summary report is the sixth in a series of reports discussing DoD compliance with
section 2326, title 10, United States Code (10 U.S.C. § 2326 [2009]). We determined
DoD compliance with restrictions on undefinitized contractual actions (UCAs) imposed
by 10 U.S.C. § 2326 [2009], “Undefinitized contractual actions: restrictions.” We also
determined whether UCAs were appropriately justified and definitized at reasonable
prices. In addition, for this summary report we reported on the number of UCAs used by
Services. See Appendix A for the scope and methodology and prior coverage related to
the objectives.

Legislation and Congressional Report Requirement
The DoD Inspector General (IG) is required by Public Law 99-591, “Continuing
Appropriations for Fiscal Year 1987,” section 908(b), to periodically conduct audits of
UCAs. DoD IG Report No. D-2004-112, “Undefinitized Contractual Actions,”
August 30, 2004, was our last audit before beginning this series of UCA audits.
Section 908(b) of Public Law 99-591, “Requirements Relating to Undefinitized
Contractual Actions,” states:
               (b) Oversight by Inspector General.—The Inspector General of the
               Department of Defense shall—

                (1) periodically conduct an audit of con tractual actions under the
               jurisdiction of the Secretary of Defense (with respect to the Defense
               Logistics Agency) and the Secretaries of the military departments; and

                (2) after each audit, submit to Congress a report on the management of
               undefinitized contractual actions by each Secretary, including t he
               amount of contractual actions under the jurisdiction of each Secretary
               that is represented by undefinitized contractual actions.

Background on UCAs
UCAs are agreements that allow a contractor to begin work and incur costs before the
Government and the contractor have reached a final agreement on contract terms,
specifications, or price. Contracting officers should use UCAs only when the negotiation
of a definitive contractual action is not possible in sufficient time to meet the
Government’s requirement. The Government’s requirement must also demand that the
contractor be given a binding commitment so that contract performance can begin
immediately.

UCA Restrictions
       Section 2326, title 10, United States Code, requires that the request to issue a
UCA be sent to the head of an agency, contain the anticipated impact on agency
requirements if a UCA is not used, and establish limitations on the obligation of funds, on



                                                 1

the definitization of terms, and on the allowable profit for UCAs. The Government limits
the use of UCAs because these contracts place the Government at a distinct disadvantage
in negotiating final prices.

UCAs for foreign military sales, purchases that do not exceed the simplified acquisition
threshold, special access programs, and congressionally mandated long-lead procurement
contracts are not subject to compliance with 10 U.S.C. § 2326, but must comply with
Defense Federal Acquisition Regulation Supplement (DFARS) 217.74, “Undefinitized
Contract Actions,” to the maximum extent practicable. Both 10 U.S.C. § 2326 and the
DFARS provide additional restrictions for the approval, definitization, obligation of
funds, and determination of allowable contractor profit.

For each of the five reports we reviewed the following four areas to determine whether
UCAs issued by DoD contracting personnel were in compliance.

   	 Authorization to use a UCA: We evaluated whether contracting personnel issued
      UCAs only after obtaining proper authorization. In addition, we reviewed the
      requests to issue a UCA to verify that the requests adequately address potential
      adverse impacts on agency requirements if a UCA was not issued.

   	 Contract definitization: We evaluated whether DoD contracting personnel 

      definitized UCAs within the 180-day time limit. 


   	 Allowable profit: We evaluated whether DoD contracting personnel’s 

      determination of contractor profit reflected the work performed during the 

      undefinitized period. 


   	 Compliance with obligation limitations: We evaluated whether DoD contracting
      personnel obligated funding within allowable amounts.

We also reviewed UCAs to determine whether DoD contracting personnel appropriately
justified the need to use a UCA and whether DoD contracting personnel adequately
documented that the UCAs were definitized at fair and reasonable prices. In addition, we
reviewed UCAs issued after August 2008 to determine whether DoD contracting
personnel obligated funds according to the requirements stated in the Office of Defense
Procurement and Acquisition Policy (DPAP) memorandum, “Management Oversight of
Undefinitized Contract Actions,” August 29, 2008, (August 2008 DPAP memorandum).

Enhanced Reporting Requirements
DPAP issued the August 2008 DPAP memorandum requiring semiannual reporting of
DoD UCAs for actions with an estimated value of more than $5 million. See Appendix B
for a copy of the memorandum. DPAP introduced the enhanced reporting requirement in
response to the Government Accountability Office (GAO) Report No. GAO-07-559,
“Defense Contracting: Use of Undefinitized Contract Actions Understated and




                                           2

Definitization Time Frames Often Not Met,” June 19, 2007, and Public Law 110-181,
“The National Defense Authorization Act for Fiscal Year 2008,” section 809,
“Implementation and Enforcement of Requirements Applicable to Undefinitized
Contractual Actions.”

DFARS Case Rulings
         The 2007 GAO audit report resulted in DFARS Case 2007-D011, which clarified
that, in accordance with 10 U.S.C. § 2326, DFARS 217.74 provides the criteria (not
Federal Acquisition Regulation [FAR] 16.603-2, “Application”) for planning the
definitization schedule for a letter contract.1 DFARS Case 2008-D034 expanded the
definition of “contract action” in DFARS 217.74 to include change orders and other un-
priced modifications. Previously, change orders and other un-priced modifications
adhered to guidance to the maximum extent practicable.

Contracting Activities Visited
We reviewed the Services’ management of 251 UCAs with not-to-exceed values of about
$15 billion at the following five locations (see Table 1).
 Army Contracting Command – Redstone Arsenal (ACC-RSA): is responsible for
  contracting for Army Aviation and Missile Command. Army Aviation and Missile
  Command provides sustainment support to joint warfighters and allies ensuring
  aviation and missile system readiness. Army Aviation and Missile Command develops,
  acquires, fields, and sustains aviation, missile, and unmanned vehicle systems.

 Naval Air Systems Command (NAVAIR): provides full life-cycle support of naval
  aviation aircraft, weapons, and systems operated by sailors and marines. The support
  includes research and development, systems engineering, acquisition, and logistics
  support to the operating force including aircraft, avionics, air-launched weapons,
  electronic warfare systems, and all other equipment related to Navy and Marine Corps
  air power.

 Marine Corps Systems Command (MCSC): is responsible for acquiring and
  sustaining systems and equipment used to accomplish the Marine Corps warfighting
  mission. MCSC provides systems and equipment to the operating forces and manages
  the systems and equipment during their entire lifecycle.

 Air Force Electronic Systems Center (ESC): develops, acquires, modernizes, and
  integrates net-centric command and control, intelligence, surveillance, and
  reconnaissance capabilities, as well as combat support information systems. ESC also
  provides warfighting commanders with battlefield situational awareness and accurate
  and relevant information on a global information grid.




1
 A letter contract is a written preliminary contractual instrument that allows a contractor to start work
before the finalization of the contract terms.


                                                       3

 Air Force Space and Missile Systems Center (SMC): delivers space and missile
  systems to the joint warfighter and our nation. SMC is a center for researching,
  developing, and purchasing military space systems. SMC is also responsible for on-
  orbit, check-out testing, sustainment, and maintenance of military satellite
  constellations and other DoD space systems.

            Table 1. Total UCAs Reviewed at Each Contracting Activity

       Contracting Activity           Number of UCAs              Not-to-Exceed Value
      ACC-RSA                              43                           $ 3,088,871,618
      NAVAIR                               52                             1,594,376,628
      MCSC                                 88                             2,750,208,696
      ESC                                  41                             2,758,417,177
      SMC                                   27                            4,766,405,745
        Totals                             251                         $14,958,279,864

For the 251 UCAs that we reviewed, DoD contracting personnel procured a wide range
of products and services. The products and services DoD contracting personnel procured
included tanks and armored vehicles, aircraft, parts and equipment, guided missile and
space manufacturing, and research and development. Figure 1 identifies the five most
common products or services procured for the 251 UCAs reviewed.

            Figure 1. Five Most Common Products or Services Procured
                            for the 251 UCAs Reviewed




                                                                                                   Total Dollar Value (in millions)
         Military Armored Vehicle, Tank                                             $1,972 

       Other Aircraft Parts and Auxiliary
                                                                  $1,274
          Equipment Manufacturing

                 Aircraft Manufacturing                           $1,011 

       Guided Missile and Space Vehicle
                                                               $5,363 
               Manufacturing
    Research and Development in the
                                                     $1,493 
 Physical, Engineering, and Life Sciences

                                            0   5    10   15    20       25   30   35   40    45
                                                          Number of UCAs Issued




                                                4

Reporting on DoD UCA Use
Public Law 99-591 requires that the DoD IG report on the amount of UCAs under the
jurisdiction of each Secretary. According to Federal Procurement Database System-Next
Generation (FPDS-NG), DoD contracting personnel issued 2,004 letter contracts with a
total value of about $17.9 billion from FY 2004 through June 9, 2011; however, those
values understate DoD UCA use. Letter contracts are UCAs and are clearly identified in
FPDS-NG. However, contracting personnel may issue a UCA on instruments other than
letter contracts such as modifications to an existing letter contract or as delivery or task
orders on indefinite-delivery, indefinite-quantity contracts. Those transactions are not
easily or reliably identified in FPDS-NG. Both GAO and DoD IG have noted in previous
reports the inadequacies of UCA data contained in the FPDS-NG and earlier versions of
the system.2 Table 2 illustrates the number of letter contracts issued by DoD from
FY 2004 through June 9, 2011. See Appendix C for the number and not-to-exceed
amounts of UCAs issued by each DoD Component. See Appendix D for the number of
UCAs definitized and the definitization amounts by DoD Component.

     Table 2. Letter Contracts Issued by DoD From FY 2004 Through June 9, 2011

                 Fiscal Year        Letter Contracts            Value
                 2004                      333               $2,448,505,463
                 2005                      378                3,128,711,034
                 2006                      282                1,421,272,978
                 2007                      242                1,541,350,990
                 2008                      240                2,182,182,957
                 2009                      263                2,383,811,189
                 2010                      215                4,020,505,806
                 2011                       51                  809,159,204
                    Totals               2,004             $17,935,499,622

DoD UCAs Reported to DPAP
DoD contracting offices began reporting their UCAs to DPAP following the issuance of
the August 2008 DPAP memorandum. The DPAP report includes all UCAs with a not-
to-exceed value greater than $5 million (not only letter contracts) that were issued,
outstanding, or definitized during the 6-month reporting period. Beginning with the
October 2010 report, DoD contracting offices began reporting on UCAs falling within
statutory exception categories (foreign military sales, congressionally mandated long-lead
time items, and special access programs). For the April 2011 report, DoD contracting
offices reported 367 UCAs with a total not-to-exceed value of more than $38 billion.



2
    DoD IG Report D-2004-112 and GAO Report GAO-07-559.


                                                 5

A UCA and the associated dollar value may be reported in more than one reporting
period until it is definitized. Table 3 shows the number of UCAs reported to DPAP,
semiannually, from October 2008 through March 31, 2011.



                  Table 3. UCAs Use Reported Semiannually to DPAP

               DPAP Report                  UCAs Reported                Not-to-Exceed
                                                                             Value
         October 2008                               205                   $5,298,727,311
         April 2009                                 332                   30,313,227,534
         October 2009                               316                   23,655,334,952
         April 2010                                 342                   29,389,493,298
         October 2010*                              490                   52,203,194,106
         April 2011*                                367                   38,277,643,706
       *Includes UCAs occurring within statutory exception categories (foreign military sales,
       congressionally mandated long-lead time items, and special access programs).

Review of Internal Controls Over UCA Use
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses in DoD’s management of UCAs. Specifically, DoD contracting personnel
did not definitize UCAs within allowable time frames and did not adequately document
how costs incurred during the undefinitized period impacted the contractor’s profit. In
addition, DoD contracting personnel did not adequately document allowable profit. We
will provide a copy of the report to the senior officials responsible for internal controls
and policy for DoD management of UCAs.




                                                  6

Finding. Inconsistent Management of
Undefinitized Contractual Actions
DoD contracting personnel did not comply with statutory and DoD requirements for
managing UCAs for 216 of 251 UCAs we reviewed. For the 216 UCAs, valued at about
$13.2 billion, DoD contracting personnel did not:

   	 definitize 132 UCAs within allowable time frames because of inadequate
      contractor proposals, staffing shortages, and changing Government requirements;
   	 adequately support whether the reduced risk during the undefinitized period was
      reflected in profit determination for 108 UCAs because they prepared
      DD Forms 1547, “Record of Weighted Guidelines Application,” and price
      negotiation memoranda (PNM) that did not provide sufficient detail to determine
      the basis for profit determination;
   	 reflect the contractor’s reduced risk in the Government’s negotiation position on
      profit for 10 UCAs because they did not follow applicable guidance;
   	 obligate funds in accordance with allowable amounts for 64 UCAs because they
      were unaware of obligation limits, miscalculated obligation amounts, and changed
      the not-to-exceed value without adjusting obligations;
   	 obligate funding in accordance with contractor’s spending requirements during
      the undefinitized period for 45 UCAs because they had not taken steps to comply
      with the August 2008 DPAP memorandum;
   	 adequately justify UCAs because of a lack of individual requests supporting use,
      poor planning, and lack of timely identification of contract requirements for
      60 UCAs;
   	 adequately document the authorization to issue UCAs because they did not
      describe the need to begin performance before definitization or the impact on
      agency requirements if a UCA was not issued for 59 UCAs; and
   	 document whether the definitized prices the Government paid were fair and
      reasonable for 15 UCAs because the efforts were completed before the UCAs
      were definitized.

As a result, DoD assumed additional cost risk and may have paid excessive profit and
more than fair and reasonable prices.

UCA Deficiencies
Our review of 251 UCAs issued by DoD contracting personnel identified 493 total
deficiencies. Some UCAs had more than one deficiency. UCA deficiencies consisted of
seven different types: untimely definitization, noncompliance with requirements to reflect
the impact of the undefinitized period on allowable profit, obligating funds in excess of
the allowable amounts, obligation of funds not in accordance with requirements outlined
in the 2008 DPAP memorandum, improper justification to issue a UCA, UCA
authorization requests not adequately supported, and insufficient documentation supporting
whether the Government received a fair and reasonable price. Table 4 identifies the reasons
we considered the UCAs to be deficient.


                                            7

                         Table 4. Reasons for 216 Deficient UCAs

                                                                          Number of
                    Reasons UCA Was Deficient
                                                                         Deficiencies*
         Untimely definitization                                              132
         Noncompliance with requirements to reflect the                       118
         impact of the undefinitized period on allowable
         profit
         Obligation of funds in excess of allowable                             64
         amounts
         Obligation of funds not in accordance with 2008                        45
         DPAP memorandum
         Improper justification to issue a UCA                                  60
         UCA authorization requests not sufficiently                            59
         supported
         Inadequate price reasonableness                                        15
         determination
            Total                                                              493
        *A UCA may have more than one deficiency.

                                       Untimely Definitization
   DoD contracting personnel        DoD contracting personnel did not definitize
   exceeded the statutory time      132 UCAs within the 180-day time frame specified by
      limits for 132 of the         10 U.S.C § 2326 and DFARS 217.74. DoD
      251 UCAs reviewed.            contracting personnel did not definitize 132 UCAs in
                                    a timely manner because of inadequate contractor
                                    proposals, personnel shortages, and changes in
Government requirements during the undefinitized period. In addition, DoD contracting
personnel cited several other contributing factors that led to untimely definitization.
Section 2326(b), title 10, United States Code, states:
           A contracting officer of the Department of Defe nse may not enter into an
           undefinitized contractual action unless the contractual action provides for
           agreement upon contract ual terms, specifications, and price by the ea rlier
           of—

               (A) the end of the 180-day period beginning on the date on which the
               contractor submits a qual ifying proposal to definitize the contractual
               terms, specifications, and price; or

               (B) the date on which the amount of f unds obligated under the
               contractual action is equ al to more than 50 percent of the negotiated
               overall ceiling price for the contractual action.




                                                  8

Section 2326(g)(2) defines a “qualifying proposal” as:
                   . . . a proposal that contains su   fficient information to enable the
                   Department of Defense to conduct complete and meaningful audits of
                   the information contained in the proposal and of any other information
                   that the Department is en titled to review in connection with the
                   contract, as determined by the contracting officer.

DoD contracting personnel averaged 363 days from UCA issuance to definitization for
the 132 late actions. In addition, for the 132 late actions, DoD contracting personnel took
an average of 169 days to receive a qualifying proposal and 228 days to definitize the
UCA after a qualifying proposal was received. Table 5 illustrates the average elapsed
days for UCAs that exceeded the 180-day definitization time frames.

                       Table 5. Elapsed Days for Late UCA Definitization

Contracting         Number        Number                               Average Days
 Activity             of          of Late        To Receipt of             From             From
                     UCAs          UCAs          a Qualifying           Proposal to      Issuance to
                                                   Proposal            Definitization   Definitization
ACC-RSA                43            16              113                    199              314
NAVAIR                 52            29               70                    280              344
MCSC                   88            57              307                     96              378
ESC                    41            12              142                    349              442
SMC                    27            18              139                    230              335
  Totals               251           132             169*                   228*             363
 *
     Qualifying proposal was received before issuance for 34 actions

Importance of Definitization Time Frames
        DoD contracting personnel placed the Government at additional cost risk when
they definitized UCAs beyond the allowable 180-day time frames. Definitization time
frames are relevant because they signal when the Government is exposed to increased
cost risk. In some circumstances, DoD contracting personnel have little control over the
factors causing untimely definitization. For example, customer-directed changes to the
item to be procured resulted in definitization delays. However, contracting personnel are
responsible for ensuring the Government’s negotiation position reflects the reduced risk
of incurred costs during a prolonged undefinitized period. DoD contracting personnel’s
use of UCAs transfers additional risk to the Government because all costs during the
undefinitized period are considered allowable, and a prolonged undefinitized period can
effectively change the contract type from a fixed-type contract to a cost-type contract. In
addition, changes in requirements can delay the delivery of urgently needed goods and
services.




                                                      9

Primary Reasons for Untimely Definitizations
DoD contracting personnel did not definitize UCAs in a timely manner primarily because
contractors submitted inadequate proposals, contracting activities experienced personnel
shortages, and contract requirements changed during the undefinitized period. In
addition, DoD contracting personnel cited several reasons contributing to untimely
definitization. Table 6 illustrates the direct and contributing reasons behind untimely
definitization.

              Table 6. Reasons Identified by DoD Contracting Personnel for 

                                 Untimely Definitization 


            Reason for Untimely Definitization                  Direct          Contributing
                                                                Cause              Cause
           Contractor proposal problems                          23                 13
           Personnel shortages                                   29                  6
           Change in Government requirements                     16                  5
           Complexity and scope                                   0                 10
           Extended contract negotiations                         5                  5
           Pricing delays                                         3                  5
           Audit problems                                         3                  0
           Undefinitized                                          4                  0
           Reasons not specified                                 13                  0
           Other*                                                10                 16
       *
        Other reasons for untimely definitization include delays in acquiring truth in negotiations
       disclosure updates, disagreements over subcontracting plan, administrative delays, and a
       contractor’s sale of part of its business.

Inadequate Contractor Proposals
DoD contracting personnel were unable to definitize 23 UCAs within allowable time
frames because contractors did not provide an adequate qualifying proposal. In addition,
contracting personnel cited 13 instances that inadequate proposals contributed to
untimely definitization. The contractor proposals were inadequate because the
contracting officers determined that they did not contain sufficient information to enable
DoD contracting personnel to conduct complete and meaningful audits, were submitted in
an untimely manner, or contained questionable costs. DPAP personnel should revise the
DFARS Procedures, Guidance, and Information 217.74 to incorporate a template with
standard prompts for completing authorization requests to include a definitization
schedule of agreed-upon events that supports timely definitization.

Personnel Shortages
DoD contracting personnel were unable to definitize 29 UCAs within allowable time
frames because of personnel shortages, changes in workload, and transition of assigned
contracting personnel. In addition, contracting personnel cited six instances in which



                                                   10 

personnel shortages and changes in workload contributed to untimely definitization.
MCSC contracting personnel identified 26 instances when personnel shortages were
determined to be the cause of untimely definitization. NAVAIR contracting personnel
cited seven instances in which personnel shortages or changes in workload contributed to
untimely definitization. We did not consider this a DoD-wide issue; therefore, we are not
making a recommendation.

Changes in Government Requirements
DoD contracting personnel were unable to definitize 16 UCAs within allowable time
frames because Government requirements changed after DoD contracting personnel
issued the UCA. In addition, DoD contracting personnel cited five instances in which
changes in Government requirements contributed to untimely definitization. Each
significant change in requirements requires that the contractor prepare or revise a
proposal that contracting personnel and possibly Defense Contract Audit Agency
personnel must then review. DPAP personnel should revise the DFARS Procedures,
Guidance, and Information 217.74 to emphasize the importance of coordination among
contracting personnel, program office personnel, and customers.

DoD Contracting Personnel’s Noncompliance With
Requirements to Reflect the Impact of the Undefinitized
Period on Allowable Profit
DoD contracting personnel definitized 118 UCAs without adequately documenting or
reflecting the reduced risk of incurred costs during the undefinitized period. DoD
contracting personnel issued 108 UCAs that did not include sufficient support to
determine the basis for their profit determination because they relied upon the
DD Forms 1547 without a thorough discussion of the weights assigned when developing
the Government’s profit positions. DoD contracting personnel’s profit determination for
the 108 UCAs was insufficient because supporting documentation did not contain
key required information including:
                                                the degree to which costs were incurred before
                                           definitization,
     DoD contracting personnel                  the risk factors assigned to the incurred cost
    definitized 118 UCAs without           and projected cost when the weighted guidelines
     adequately documenting or             application was used, and
    reflecting the reduced risk of              the resulting impact on the contractor’s profit
      incurred costs during the            or fee.
         undefinitized period.
                                    In addition, DoD contracting personnel issued
                                    10 UCAs that did not reflect the contractor’s reduced
cost risk because personnel relied upon guidance with a lower precedent3 when
developing the Government’s negotiation positions or because personnel did not comply
with applicable guidance. As a result, DoD contracting personnel’s reliance on guidance


3
    Contracting personnel adhered to FAR 15.404-4(c)(6) instead of 10 U.S.C. § 2326(e).


                                                     11 

with a lower precedent resulted in negotiation positions that did not adequately consider
potential reduced risk. In addition, DoD contracting personnel may have entered into
negotiations with an inaccurate profit position for 108 UCAs that they did not adequately
document the determination of profit. During the undefinitized period, the Government
bears increased risk, and the contractor generally bears reduced risk. If the contractor’s
reduced risk is not reflected in the negotiated profit rate, then the Government could pay
too much profit. Table 7 illustrates profit deficiencies by contracting activity.

                 Table 7. Profit Deficiencies by Contracting Activity

           Contracting Activity      Profit Deficiencies    UCAs Reviewed
           ACC-RSA                           29                   43
           NAVAIR                            5                    52
           MCSC                              45                   88
           ESC                               25                   41
           SMC                               14                   27
             Totals                         118                  251

Inadequate Documentation of Profit Determination
        DoD contracting personnel did not adequately document the profit determination
for 108 UCAs. This occurred because DoD contracting personnel did not include
essential information including the costs incurred before definitization, how incurred
costs were factored into profit positions entering into negotiations, and the impact of
incurred cost on cost risk because profit determinations were only supported by the
DD Forms 1547.

DD Form 1547
The DD Form 1547 did not include incurred cost nor provide sufficient detail for us to
determine the effect of the incurred costs on profit. It should not be used as the sole
documentation for profit determination. Contracting personnel used the weighted
guidelines application to assign a value for item 24 for contract type risk, which focuses
on the degree of cost risk accepted by the contractor. When used correctly, the weighted
guidelines application takes into consideration the possible reduced risk of the
undefinitized period by separating the incurred costs and the remaining costs to develop
the profit position. The application then produces a composite contract type risk factor.
However, the DD Form 1547 did not display all of the factors entered by the contracting
activity. Figure 2 illustrates the profit factors section of the current DD Form 1547.




                                            12 

                   Figure 2. Screenshot of the Current DD Form 1547




DoD personnel could provide a more transparent means of assigning reduced risk for
incurred cost during the undefinitized period in a variety of ways. One way of presenting
the information could be revising DD Form 1547 to include a separate line within item 24
so contracting personnel can assign lower than normal factors to reflect reduced risk.

Discussion of Impact on Profit Position
DoD contracting personnel may have documented the cost incurred during the
undefinitized period and used the weighted guidelines application to develop a profit
objective, but they did not consistently document the resulting effect on the contractor’s
allowable profit. Without adequate discussion of the contracting officer’s consideration
of the cost incurred within contract documentation, we were unable to determine to what
extent the impact of the undefinitized period was reflected in the contractor’s profit.
DoD contracting personnel identified and entered a profit factor but did not state the
degree to which costs were incurred before definitization, the risk factors assigned to the
incurred cost and projected cost, or the resulting impact on the contractor’s profit or fee.

Contracting personnel should document the costs incurred before definitization and their
impact on profit determination in the PNM. Both GAO and DoD IG recommended in
previous reports that DoD revise the DFARS to include instructions on how to perform
an assessment of any reduced cost risk on profit or fee during the undefinitized period.4
DPAP personnel should revise the DFARS Procedures, Guidance, and Information
217.74 to include guidance on how contracting personnel can factor substantial incurred
costs into profit position when completing the weighted guidelines.




4
 GAO Report No. GAO-10-299, “DoD Has Enhanced Insight into Undefinitized Contract Action Use, but
Management at Local Commands Needs Improvements,” January 28, 2010, and DoD IG Report No. D-
2004-112.


                                               13 

DoD Contracting Personnel Did Not Comply With Applicable
Guidance
DoD contracting personnel did not comply with the requirements in 10 U.S.C. 2326(e) to
reflect the undefinitized period in the contractor’s profit or fee for 7 UCAs because they
relied on guidance with a lower precedent when developing the Government’s
negotiation positions. Instead of following the requirements of 10 U.S.C. 2326(e),
contracting personnel adhered to FAR 15.404-4(c)(6), “Profit” which permits contracting
officers to use the basic contract’s profit or fee rate as the prenegotiation objective for a
change or modification to a contract if the change or modification calls for essentially the
same type and mix of work as the basic contract and is of relatively low dollar value
compared to the total contract value. Additionally, DoD contracting personnel did not
factor substantial incurred costs into negotiation positions for three UCAs because they
did not comply with DFARS guidance when using the weighted guidelines to develop
profit positions when they entered into negotiation. DPAP personnel should revise the
DFARS Procedures, Guidance, and Information 217.74 to emphasize the importance of
sufficiently documenting compliance with requirements to reflect reduced risk for
undefinitized contractual actions with substantial incurred cost.

Both 10 U.S.C. 2326 and the DFARS provide guidance on profit determination, and the
FAR provides guidance on documentation of the price negotiation. Title 10 U.S.C.
2326(e), states:

       The head of an agency shall ensure that the profit allowed on an undefinitized contractual
       action for which the final price is negotiated after a substantial portion of the performance
       required is completed reflects—

            (1) the possible reduced cost risk of the contractor with respect to costs
            incurred during performance of t he contract before the final price is
            negotiated; and

            (2) the reduced cost risk of the contractor with respect to costs incurred during
            performance of the remaining portion of the contract.

DFARS 215.404-4, “Profit,” requires that contracting officers use a structured approach
for developing a prenegotiation profit or fee objective on any negotiated contract action
when the contractor provides cost or pricing data, except for cost-plus-award-fee
contracts or contracts with Federally Funded Research and Development Centers.
DFARS 215.404-4 further states that the weighted guidelines method is the structured
approach that must be used, with certain exceptions. FAR 15.406-3, “Documenting the
Negotiation,” states that the PNM is the required document in which the contracting
officer must document the basis for the profit or fee prenegotiation objective and the
profit or fee negotiated.

DoD Contracting Personnel Generally Complied with
Obligation Limitations
DoD contracting personnel complied with obligation limitations for 187 of 251 UCAs
issued. Contracting officers are limited by 10 U.S.C. § 2326 in the amount of funds they


                                                   14 

may obligate on a UCA to 50 percent of the not-to-exceed value before receipt of a
qualifying proposal and to 75 percent after receipt of a qualifying proposal. Exceeding
the allowable obligation thresholds puts the Government in a poor position to negotiate a
contract at definitization because contractors are less inclined to submit a qualifying
proposal when there is adequate funding available to continue the work. Table 8
indicates the number of obligation deficiencies at each contracting activity.

            Table 8. Obligation Deficiencies at Each Contracting Activity

                  Contracting Activity                Deficiencies           UCAs
                                                                            Reviewed
              ACC-RSA                                        2                 43
              NAVAIR                                         3                 52
              MCSC                                          54                 88
              ESC                                            2                 41
              SMC                                            3                 27
                Totals                                      64                251

Section 2326(b)(2) and (3), title 10, United States Code, states:

               (2) Except as provided in paragraph (3), the contracting officer for an
               undefinitized contractual action may not obligate with respect to such
               contractual action an amount that is equal to more than 50 percent of
               the negotiated overall ceiling price until the contractual terms,
               specifications, and price are definitized for such contractual action.

               (3) If a co ntractor submits a qual ifying proposal (as defined in
               subsection (g)) to definitize an undefinitized contractual action before
               an amount equal to more than 50 percent of t he negotiated overall
               ceiling price is obligated on such action, the contracting officer for such
               action may not obligate with respect to such contractual action a n
               amount that is equal to more than 75 percent of the negotiated overall
               ceiling price until the contractual terms, specifications, and price are
               definitized for such contractual action.

DoD contracting personnel issued 64 UCAs that did not comply with obligation
limitations. MCSC contracting personnel did not comply with obligation limitations for
54 of the 64 UCAs issued before September 2008 because they were unaware of
requirements limiting the amount of obligations. MCSC financial personnel informed
contracting officials that their practice of obligating 100 percent of the contract was in
violation of the 10 U.S.C. 2326 (b) (2) and (3). MCSC personnel properly obligated
funds on the 21 UCAs issued after August 29, 2008. Because MCSC personnel took
corrective actions, we did not make a recommendation to the MCSC. For the remaining
10 UCAs, DoD contracting personnel did not comply with obligation limitations because
of miscalculations, inappropriately over-obligating the UCA, changes to the not-to-
exceed value without adjusting the corresponding amount obligated, treating a UCA as a



                                                  15 

change order, and trying to avoid an Antideficiency Act violation. We are not making a
recommendation because the 10 deficiencies were not indicative of a DoD-wide problem.
Table 9 indicates the reasons obligation limitations were deficient.

                Table 9. Reasons for Exceeding Obligation Limitations

                            Reasons                               Deficiencies
       Unaware of requirements                                         54
       Miscalculation                                                  4
       Decreased not-to-exceed amount without adjusting                2
       obligation amount
       Inappropriately overobligated                                    2
       Treated UCA as a change order                                    1
       To avoid an Antideficiency Act violation                         1
          Total                                                        64

DoD Contracting Personnel Did Not Obligate Funds in
Accordance With 2008 DPAP Memorandum
DoD contracting personnel obligated the maximum permissible funding before
definitization for 45 of 68 UCAs after the August 2008 DPAP memorandum. DoD
contracting personnel obligated the maximum amount permissible because DoD
contracting personnel had not taken steps to comply with the August 2008 DPAP
memorandum. The August 2008 DPAP memorandum instructed contracting officers to
assess the contractor’s spend plan for the undefinitized period and to obligate funding in
an amount consistent with the contractor’s requirements for the undefinitized period.
DoD contracting personnel should take steps to comply with the August 2008 DPAP
memorandum requirement by obligating funding according to the contractor’s
requirements rather than to the maximum amount permissible. In addition, DPAP
personnel should revise the DFARS Procedures, Guidance, and Information 217.74 with
instructions on how to establish and determine obligation levels that will sustain
contractor operations for an estimated undefinitized period of 180 to 360 days.

Improper Justification to Issue a UCA
DoD contracting personnel issued 60 UCAs without adequate justification.
DFARS 217.7403, “Policy,” limits the use of a UCA to situations when negotiating a
definitive contract is not possible and the Government’s interest demands contract
performance begin immediately. MCSC personnel improperly issued 33 UCAs because
personnel issued UCAs without individual requests supporting the use. As a result of our
recommendations, MCSC developed a quick reference and process guide for personnel to
use to ensure documentation supporting UCA use is adequately justified. DoD
contracting personnel also issued UCAs without adequate justification because they
issued UCAs for known or recurring acquisition requirements and for requirements that
were not identified in a timely manner. Issuing UCAs for known requirements or for


                                            16 

requirements not identified in a timely manner places the Government at unnecessary and
avoidable cost risk. DPAP personnel should revise the DFARS Procedures, Guidance,
and Information 217.74 to emphasize the acquisition circumstances in which UCA use
places the Government at unnecessary and avoidable risk and the means by which
contracting personnel can mitigate this risk. Table 10 illustrates justification deficiencies
by type and contracting activity. Each contract action could have more than one
justification deficiency.

         Table 10. Justification Deficiencies by Type and Contracting Activity

                             Contracts Issued            Known or               Late
    Contracting             Without Statements           Recurring        Identification of
     Activity               Justifying UCA Use           Acquisition        Contractual
                                                        Requirements       Requirement
  ACC-RSA                             0                      3                   0
  NAVAIR                              0                      4                   0
  MCSC                               33*                     1                   0
  ESC                                 0                     15                   4
  SMC                                 0                      0                   0
    Totals                           33                     23                   4
*Issued without separate requests.

Reasons for DoD UCA Use
        DoD contracting personnel adequately justified issuing 191 UCAs and generally
limited use to circumstances in which the negotiation of a definitive contract was not
possible within the time available to meet urgent DoD requirements. DoD contracting
personnel primarily issued UCAs to meet urgent operational needs and to maintain
production and development efforts. Figure 4 illustrates the six primary reasons that
DoD contracting personnel used for the UCAs that we reviewed.




                                                 17 

                       Figure 3. Primary Reasons DoD Contracting Personnel Used UCAs
                                            and the Amount Spent
                                                 (in millions)

                       120
                                                                                              $6,416

                       100
      Number of UCAs




                        80
                                                                                 $2,280

                        60

                                                                     $3,181
                        40
                                                         $2,564

                        20
                                $107         $412
                         0
                                 Late       Proposal     Known       Various/    Urgent      Maintain
                             Identification Problems   Acquisition   Multiple   Operational Production/
                              of Contract              Requirement                Needs     Cost Savings
                             Requirements


UCA Authorization Requests Not Sufficiently Supported
DoD contracting personnel issued 55 UCAs with inadequate authorization requests and
4 UCAs without proper approvals. DoD contracting personnel issued UCAs with
inadequate authorization requests because they did not comply with applicable guidance
either by not explaining the need to begin performance immediately or by not explaining
the impact on agency requirements if a UCA was not issued, or both. As a result, DoD
contracting personnel placed the Government at avoidable risk when issuing UCAs
without complete documentation explaining the need for UCA use. Table 11 identifies
the number of deficient authorization requests at each of the five contracting activities.

                        Table 11. Authorization Deficiencies for the 251 UCAs Reviewed

                             Contracting Activity              Deficiencies         UCAs
                             ACC-RSA                                  0               43
                             NAVAIR                                   7               52
                             MCSC                                    34               88
                             ESC                                     17               41
                             SMC                                      1               27
                               Totals                                59              251



                                                            18 

Both 10 U.S.C. § 2326 and the DFARS provide guidance on issuing UCAs.
Section 2326(a), title 10, United States Code, states:

               The head of an agency may not enter into an undefinitized contractual
               action unless the request to the head of the agency for authorization of
               the contractual action includes a description of the anticipated effect on
               requirements of the military department concerned if a delay is incurred
               for purposes of determining contractual terms, specifications, and price
               before performance is begun under the contractual action.

DFARS 217.7404-1, “Authorization,” requires that the contracting officer obtain
approval from the head of the contracting activity before entering into a UCA and that the
request for UCA approval include a complete explanation of why contract performance
needs to begin before contract definitization and the adverse impact on agency
requirements resulting from delays in performance.

Noncompliant Requests to Issue a UCA
        DoD contracting personnel issued 55 UCAs with inadequate authorization
requests because they did not comply with applicable guidance when preparing
authorization requests. DoD contracting personnel did not fully explain the adverse
impact on agency requirements resulting from delays in performance or the need to begin
performance before definitization. MCSC contracting personnel issued 33 UCAs on
2 requests but did not comply with requirements to use a request for each UCA to explain
the need to begin performance before definitization and the adverse impact resulting from
delays in performance.

SMC and ACC-RSA contracting personnel had only one deficient authorization request
between the two because the head of the contracting activity requires that contracting
personnel complete a standardized authorization request with descriptive prompts before
approving UCA use. The standard authorization request requires contracting personnel to
explain the urgent need and impact on agency requirements if a UCA is not used. In
addition, SMC required contracting personnel to explain the steps taken to avoid UCA
use in the future. DPAP personnel should revise the DFARS Procedures, Guidance, and
Information 217.74 to emphasize the importance of contracting personnel addressing:
why performance must begin immediately, the impact on agency requirements, and why
UCA use is justified when completing authorization requests

DoD Contracting Personnel Obtained Proper Approval to Issue
UCAs
        DoD contracting personnel obtained proper approval to issue 247 UCAs.
Contracting officers obtained approval from the head of the contracting activity or their
authorized delegate before entering into a UCA. ESC contracting personnel were unable
to locate the signed authorization document for one UCA. In addition, MCSC
contracting personnel issued one UCA without signed approval by the head of the
contracting activity. Finally, NAVAIR contracting personnel issued two UCAs without
proper approval because the UCA approval delegations did not specify who would sign



                                                  19 

in the absence of the approving official. None of these instances were indicative of a
DoD-wide problem for the approval to issue a UCA; therefore, we are not making a
recommendation on this issue.

DoD Contracting Personnel Adequately Documented
Fair and Reasonable Prices
DoD contracting personnel adequately documented their determination of price
reasonableness but did not adequately document the determination of profit as discussed
in this report. FAR 15.403-3, “Requiring information other than cost or pricing data,”
requires that the contracting officer obtain information that is adequate for evaluating
price reasonableness. Further, FAR 15.406-3, “Documenting the negotiation,” states that
the contracting officer must document fair and reasonable price in the contract file. We
reviewed the contract files for the 251 definitized UCAs and determined that, with the
exception of 15 UCAs issued by MCSC contracting personnel, the contract files
contained adequate documentation, such as PNMs, certificates of current cost or pricing
data, technical evaluations, forward pricing rate agreements, and related audit reports to
support the contracting officers’ determination of price reasonableness.

MCSC contracting personnel did not adequately support their determinations of price
reasonableness for 15 UCAs because they were unable to provide documentation to
support fair and reasonable pricing. Of the 15 UCAs, 13 were delivery orders issued on a
single contract. Of the 13 delivery orders, 4 delivery orders had no information available
for our review. For the other 9 delivery orders, the contractor claimed expenses for
greater than 100 percent of the not-to-exceed value of the award. MCSC contracting
officials had no leverage to obtain a fair and reasonable price for these awards and,
instead, definitized the award at 100 percent of the obligated amounts. We are not
making a recommendation because most of the deficient UCAs were on a single contract
and were not indicative of a systemic DoD-wide issue.

Impact of Revised DPAP Requirements on Compliance
DPAP personnel’s efforts to enhance visibility and management oversight of UCAs have
improved DoD contracting personnel’s compliance with guidance applicable to UCAs.
DPAP personnel improved performance by issuing guidance and enhanced reporting
procedures that required mandatory semiannual reporting of UCAs valued at more than
$5 million. DoD contracting personnel did not always report the actions they were
required to but improved their compliance over time. In addition, DPAP personnel
required each Service to create, maintain, and semiannually submit UCA management
plans that detailed the efforts undertaken by each to improve compliance and oversight.
The average deficiency per UCA has declined and visibility of UCAs has increased.

Enhanced Reporting Requirements
       DPAP issued the August 2008 DPAP memorandum requiring the creation of
UCA management plans and semiannual reporting of DoD UCA use for actions with an
estimated value of more than $5 million. DPAP introduced the enhanced reporting
requirement in response to GAO Report No. GAO-07-559 and Public Law 110-181.


                                            20 

DPAP personnel overcame the shortcomings of identifying UCAs in FPDS-NG by
requiring the Services and DoD agencies to manually report UCA use to DPAP
semiannually (see Table 3 in the report Background for the number of UCAs reported to
DPAP, semiannually, from October 2008 through March 31, 2011).

Effect of August 2008 DPAP Memorandum on Compliance
DoD contracting personnel reduced the number of deficiencies per UCA since DPAP
issued the August 2008 DPAP memorandum. Specifically, DoD contracting personnel
reduced the number of inadequate requests to issue a UCA and the number of inadequate
profit determinations per UCA after the 2008 DPAP memorandum was issued. We
identified no improvement in the number of instances per UCA that exceeded the
obligation limitations. In addition, the number of instances per UCA that exceeded the
180-day definitization time frames increased after the memorandum was issued.
Table 12 illustrates the number of deficiencies and the average deficiencies per UCA
before and after issuance of the 2008 DPAP memorandum.

       Table 12. Effect of Enhanced Reporting Requirements on Deficiencies

                                           Before 2008       After 2008 DPAP    Percentage
                                              DPAP            Memorandum        Increase /
                                          Memorandum                            (decrease)
Number of UCAs                                 183                  68
Total Deficiencies                             375                 118
Deficiencies Per UCA                           2.05                1.74           (15.3)
Untimely definitization per UCA           87 (48 percent)     45 (66 percent)     (48.3)
Noncompliance with requirement to
reflect the impact of the undefinitized   102 (56 percent)    16 (24 percent)     (84.3)
period on allowable profit per UCA
Obligation of funds in excess of
allowable amounts or not in
                                          62 (34 percent)     47 (69 percent)     (24.2)
accordance with 2008 DPAP
memorandum per UCA
Improper justification to issue a UCA
                                          53 (29 percent)     7 (10 percent)      (86.8)
per UCA
UCA authorization request not
                                          56 (31 percent)      3 (4 percent)      (94.6)
sufficiently supported per UCA
Inadequate price reasonableness
                                           15 (8 percent)      0 (0 percent)     (100.0)
determination per UCA

Accuracy of DoD Reporting of UCAs Reviewed
DoD contracting personnel improved their reporting of newly issued or outstanding
UCAs to DPAP over the five semiannual reporting periods. We reviewed a nonstatistical
sample of 107 UCAs that the contracting activities should have included in their UCA
reports to DPAP over five reporting periods. For the three initial reporting periods, DoD
contracting personnel did not report 76 of the 143 UCAs that should have been reported.


                                              21
However, for the next two reporting periods, DoD personnel did not report only 11 of the
33 UCAs that should have been reported. Since the 2008 DPAP memorandum, DPAP
has issued additional guidance clarifying how the contracting activities should be
reporting UCA use.

UCA Management Plans
        Army, Navy, and Air Force personnel developed UCA management plans to
provide enhanced oversight of UCAs in response to the requirements of the 2008 DPAP
memorandum. The memorandum required that the plans describe actions planned and
taken to:
     ensure the appropriate use of UCAs, 

     timely definitization of UCAs, 

     minimize obligation amounts at time of UCA award (consistent with contractor’s 

        requirements for the undefinitized period), and
     recognize in profit/fee the contractor’s reduced cost risk during the undefinitized
        performance period and to document the risk assessment in the contract file.

The management plans were created by conducting roundtable discussions, working
groups, and internal policy and procedure reviews. As a result of the actions taken to
create the plans, the Services developed additional guidance. However, the Army did not
add additional guidance to their acquisition supplements, but implemented additional
guidance. Although the management plans resulted in additional guidance to ensure
proper oversight of UCAs, the effect the management plans had on compliance with
restrictions applicable to UCAs cannot be determined.

	 Army UCA Management Plan: The Army required that the contracting officer
   fully examine all aspects of the risk assessment and document the assessment in the
   prenegotiation objective memorandum and PNM. The Army also requires the
   contracting officer to provide documentation to the Principal Assistant Responsible
   for Contracting when the UCA will not be definitized within the 180-day time frame
   or when funding will exceed the 50 percent or 75 percent limitations.

	 Navy UCA Management Plan: The Navy identified the proper use of UCAs as a
   special interest item for Department of Navy Procurement Performance Management
   Assessment Program Reviews at both the headquarters and field activity levels. In
   addition, UCA best practices and lessons learned were included as a regular agenda
   item for their quarterly Department of Navy Naval Contracting Council meetings.

	 Air Force UCA Management Plan: The Air Force added mandatory procedures to
   the Air Force Federal Acquisition Regulation, section 5317.74, that require approval
   to use a UCA and include proposal instructions, reporting requirements, and required
   contracting file documentation. Air Force acquisition officials took additional action
   to provide better oversight of UCAs. On March 17, 2010, the Office of the Assistant
   Secretary of the Air Force issued Policy Memorandum 10-C-03, “Undefinitized
   Contract Actions.” The memorandum established a management review and
   reporting requirement for any UCA more than 14 days behind schedule at any point


                                           22 

    in the definitization process. In addition, on March 24, 2010, the Assistant
    Secretary of the Air Force issued Policy Memorandum 10-C-04, “Timely
    Undefinitized Contract Action (UCA) Definitization/Negotiated Awards - Contractor
    Responsiveness.” The memorandum encouraged contracting personnel to work with
    industry counterparts to receive quality documentation in a timely manner.


Corrective Actions Taken in Response to Contracting
Activity Audits
We identified discrepancies on 216 of the 251 UCAs at 5 DoD contracting activities. We
prepared an audit report for each of the activities that included findings and
recommendations to local management. Many of the areas highlighted in this report were
addressed in the previous reports. Overall, management at the activities agreed with our
findings and recommendations. As of October 1, 2011, management at ESC, SMC, and
MCSC implemented most of our recommendations, and NAVAIR and ACC-RSA began
implementing them. Additional guidance issued by DPAP personnel should further
improve DoD compliance with restrictions applicable to UCAs.

Conclusion
DPAP personnel’s efforts improved oversight and DoD contracting personnel’s
compliance with guidance applicable to UCAs. DoD personnel have adequate policy for
complying with restrictions applicable to UCAs. However, given the infrequency of
UCA use and contracting officers lack of familiarity with procedures, DPAP should
provide contracting personnel with additional guidance through an update to the DFARS
Policy, Guidance, and Information 217.74. This update can be used in conjunction with
DFARS 217.74 to provide personnel with instructions on how to comply with restrictions
applicable to UCAs.

Recommendations, Management Comments, and Our
Response
We recommend that the Director, Defense Procurement and Acquisition Policy:

1. Revise the Defense Federal Acquisition Regulation Supplement Procedures,
Guidance, and Information 217.74, “Undefinitized Contract Actions,” to:

      a. Incorporate a template with standard prompts for completing adequate
authorization requests submitted to the head of the contracting activity to include:

             (1) Why performance must begin immediately, the impact on agency
requirements, and why undefinitized contractual action use is justified.

               (2) A definitization schedule of agreed-upon events that supports
timely definitization.




                                          23 

              (3) Circumstances in which undefinitized contractual action use
places the Government at unnecessary and avoidable risk and the means by which
contracting personnel can mitigate this risk.

      b. Emphasize the importance of coordination and communication among
contracting personnel, program office personnel, and customers when using a
undefinitized contractual action.

       c. Include instructions on how contracting personnel can factor substantial
incurred costs into profit position when completing the weighted guidelines.

       d. Emphasize the importance of sufficiently documenting compliance with
requirements to reflect reduced risk for undefinitized contractual actions with
substantial incurred cost.

        e. Include guidance for contracting personnel on how to determine and
establish obligation levels that will sustain contractor operations for an estimated
undefinitized period between 180 to 360 days.

Office of Defense Procurement and Acquisition Policy
Comments
The Director, Defense Procurement and Acquisition Policy, agreed and stated that a
Defense Federal Acquisition Regulation Supplement case had been opened to incorporate
the recommended changes into the Defense Federal Acquisition Regulation Supplement
Procedures, Guidance, and Information. He stated that the recommendation will be
implemented by February 28, 2012.

Our Response
The Director, Defense Procurement and Acquisition Policy, comments were responsive,
and no additional comments are required.

2. Develop a transparent means to document incurred costs and reduced cost risk
related to substantial incurred costs during the undefinitized period. For example,
revise the Department of Defense Form 1547, “Record of Weighted Guidelines,” to
include a separate line in item 24 for assigning lower than normal factors to reflect
reduced risk.

Office of Defense Procurement and Acquisition Policy
Comments
The Director, Defense Procurement and Acquisition Policy, stated that revisions to the
weighted guidelines remain under review.

Our Response
The Director, Defense Procurement and Acquisition Policy, comments were partially
responsive. Although the Director, Defense Procurement and Acquisition Policy, stated


                                           24 

that revisions to the weighted guidelines were under review, the comments did not
indicate agreement or disagreement, specific planned corrective actions, or a date when
corrective actions will be completed. Therefore, we request that the Director, Defense
Procurement and Acquisition Policy, provide comments in response to the final report.




                                           25 

Appendix A. Scope and Methodology
We conducted this summary audit from May 2011 through November 2011. This report
summarizes a series of five performance audits conducted during the period July 2009
through June 2011. We conducted the audits in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objectives. We initially planned to review DoD’s use of UCAs as part of a single tri-
Service audit beginning in July 2009. In September 2009, we decided to conduct a
separate audit for each of the six contracting activities that we had initially identified to
be included in the tri-Service audit. In March 2011, DoD IG management decided not to
conduct the sixth planned UCA audit of U.S. Army Communications-Electronics
Command because of staffing considerations and higher priority work.

This project summarized the results from the following five audit reports on the Services’ use
of UCAs. For this report we updated the results from the previous reports for UCAs that
contracting personnel definitized after the report date. Each of the five audits focused on a
single contracting activity’s compliance with 10 U.S.C. Section 2326.

   	 DoD IG Report No. D-2011-097, “Army Contracting Command-Redstone Arsenal’s
      Management of Undefinitized Contractual Actions Could Be Improved,” August 12,
      2011

   	 DoD IG Report No. D-2011-068, “Additional Actions Can Improve Naval Air Systems
      Command’s Use of Undefinitized Contractual Actions,” June 8, 2011

   	 DoD IG Report No. D-2011-024, “Air Force Space and Missile Systems Center’s Use
      of Undefinitized Contractual Actions,” December 16, 2010

   	 DoD IG Report No. D-2011-001, “Marine Corps Systems Command’s Use of 

      Undefinitized Contractual Actions,” October 27, 2010 


   	 DoD IG Report No. D-2010-080, “Air Force Electronic Systems Center’s Use of
      Undefinitized Contractual Actions,” August 18, 2010

In addition, this project reported on the total number of UCAs under the jurisdiction of each
Secretary.

GAO was conducting a review on the use of UCAs when our audit began. We limited our site
selection to contracting activities that were not included in the GAO engagement.




                                             26 

Universe and Sample Information
For this summary report our universe consisted of the 251 UCAs identified in the 5 audit
reports on contracting activities use of UCAs. For each of the five UCA audits, we used the
FPDS-NG database to identify the universe of UCAs to review. We identified action
obligations coded as letter contracts that the Services issued from FYs 2004 through 2009.5
We classified the action obligations by contract number and contracting office code to identify
the contracting activities responsible for the 15 largest aggregate UCA dollar values and
selected six contracting activities but only reviewed five activities. Personnel from each of the
contracting activities provided a list of UCAs awarded during FYs 2004 through 2010. Based
on the FPDS-NG data and the list of UCAs provided by the contracting activities, we selected a
nonstatistical sample of UCAs for review.

Our audit universe was limited to the contracts identified in FPDS-NG. Within the FPDS-NG
system, we were unable to reliably identify three types of UCAs: “provisioned item orders,”
“indefinite-delivery, indefinite-quantity,” and “basic ordering agreements.” These types of
UCAs were identified in a field that the user or input staff created and were subject to
individual manipulations of the field, which made searching across the databases unreliable.
We supplemented our judgment selection of UCAs from lists of UCAs provided by personnel
at the contracting activities. Our final nonstatistical sample consisted of 251 UCAs with a total
not-to-exceed value of $15 billion from five contracting activities.

Review of Documentation and Interviews
We reviewed the final reports and associated workpapers from the five DoD IG audits on
five contracting activities’ use of UCAs. We analyzed information from the five projects
to determine overall DoD compliance with 10 U.S.C. § 2326 and whether contracting
personnel adequately supported their determination of price reasonableness when
definitizing UCAs. We also reviewed the Services’ reporting of UCA use and
management plans required by the August 29, 2008 DPAP memorandum. We reviewed
documentation compiled from the five contracting activities in the audit series against
applicable criteria including:

      	 Statutes and Public Laws: Public Law 99-591, “Continuing Appropriations for
         Fiscal Year 1987”; Public Law 110-181, “National Defense Authorization Act for
         Fiscal Year 2008”; 10 U.S.C. § 2304, “Contracts: Competition Requirements”;
         10 U.S.C. § 2326, “Undefinitized contractual actions: restrictions”;

      	 Federal Acquisition Regulation Requirements: FAR Subpart 6.3, “Other than Full
         and Open Competition”; FAR Subpart 15.4, “Contract Pricing”;
         FAR Subpart 16.6, “Time-and-Materials, Labor-Hour, and Letter Contracts”;
         FAR Subpart 52.2, “Text of Provisions and Clauses”;




5
    We performed the query on June 9, 2011.


                                              27 

   	 Defense Federal Acquisition Regulation Supplement: DFARS 215.404, “Proposal
      Analysis”; DFARS Subpart 216.6, “Time-and-Materials, Labor-Hour, and Letter
      Contracts”; DFARS 217.74, “Undefinitized Contract Actions”; DFARS case
      2008-D034, “Management of Unpriced Change Orders”; DFARS case 2007-
      D011, “Letter Contract Definitization Schedule”; and

   	 Memoranda: Office of the Under Secretary of Defense for Acquisition,
      Technology, and Logistics memorandum, “Management Oversight of
      Undefinitized Contract Actions,” August 29, 2008; Department of the Air Force
      Office of the Deputy Assistant Secretary (Contracting) Policy Memo 10-C-03,
      “Undefinitized Contract Actions,” March 17, 2010; Department of the Air Force
      Office of the Deputy Assistant Secretary (Contracting) Policy Memo 10-C-04,
      “Timely Undefinitized Contract Action (UCA) Definitization/Negotiated Awards-
      Contractor Responsiveness,” March 24, 2010.

Use of Computer-Processed Data
We relied on computer-processed data from FPDS-NG to determine the contracting
activities to visit and to select the nonstatistical sample. We also used Electronic
Document Access to obtain contract documentation. The data were not a basis for our
conclusions or findings. To assess the accuracy of computer-processed data, we verified
the FPDS-NG and Electronic Document Access data against official records at visited
contracting activities. We determined that data obtained through FPDS-NG and
Electronic Document Access was sufficiently reliable to accomplish our audit objectives
when compared with contract records.

We also used the FPDS-NG to report on the total number of UCAs under the jurisdiction
of each Secretary from FY 2004 through June 9, 2011. We reported on the number of
letter contracts issued and definitized. However, those values understate that actual
amount of UCA use. We identified numerous discrepancies between information
contained in FPDS-NG when compared to information contained in Electronic Document
Access and actual contract records. The discrepancies include FPDS-NG incorrectly
identifying transactions as UCAs or the reverse and inaccurate dollar values. Further,
FPDS-NG does not reliably capture other UCAs transactions such as modifications to an
existing letter contract, as a delivery or task orders on indefinite-delivery, indefinite-
quantity contracts. Because of the unreliability of UCA data in FPDS-NG, we also
reported on UCA use as reported by the Services to DPAP in their semiannual reports.

Use of Technical Assistance
We met with personnel from the DoD IG Quantitative Methods and Analysis Division
and determined that we would use FPDS-NG data to select a nonstatistical sample of
contracting activities and then we would use FPDS-NG data in combination with contract
data provided by the contracting activity to select a nonstatistical sample of UCAs to
review. Our sample was limited to specific contracts, and our results should not be
projected across other contracts.




                                           28 

Prior Coverage
During the last 5 years, GAO has issued two reports discussing DoD use of UCAs and
the DoD IG has issued five reports discussing DoD use of UCAs. Unrestricted GAO
reports can be accessed over the Internet at http://www.gao.gov. Unrestricted DoD IG
reports can be accessed at http://www.dodig.mil/audit/reports.

GAO
GAO Report No. GAO-10-299, “Defense Contracting: DoD Has Enhanced Insight into
Undefinitized Contract Action Use, but Management at Local Commands Needs
Improvements,” January 28, 2010

GAO Report No. GAO-07-559, “Defense Contracting: Use of Undefinitized Contract
Actions Understated and Definitization Time Frames Often Not Met,” June 19, 2007

DoD IG
DoD IG Report No. D-2011-097, “Army Contracting Command-Redstone Arsenal’s
Management of Undefinitized Contractual Actions Could Be Improved,” August 12,
2011

DoD IG Report No. D-2011-068, “Additional Actions Can Improve Naval Air Systems
Command’s Use of Undefinitized Contractual Actions,” June 8, 2011

DoD IG Report No. D-2011-024, “Air Force Space and Missile Systems Center’s Use of
Undefinitized Contractual Actions,” December 16, 2010

DoD IG Report No. D-2011-001, “Marine Corps Systems Command’s Use of
Undefinitized Contractual Actions,” October 27, 2010

DoD IG Report No. D-2010-080, “Air Force Electronic Systems Center’s Use of
Undefinitized Contractual Actions,” August 18, 2010




                                          29 

Appendix B. August 29, 2008, Office of
Defense Procurement and Acquisition Policy
Memorandum*




* Attachments to the memorandum have been removed from the draft report.




                                                 30 

31 

Appendix C. Letter Contracts Issued and Not-to-Exceed Amounts
for FY 2004 Through June 9, 2011
                                                                                 Other DoD
               Army                   Navy              Air Force
                                                                                  Agencies
Fiscal                                                                                             Total     Total
         Number Amount* Number            Amount*    Number        Amount*    Number   Amount*
 Year                                                                                             Number   Amount*
2004       116      $1,211.8        102    $513.7      68            $674.7     47        $48.3      333    $2,448.5
2005       157        1,615.0       135      408.4     67           1,076.7     19         28.6      378     3,128.7
2006        92          680.9       100      325.9     49             352.2     41         62.2      282     1,421.3
2007        92          459.4        65      187.5     61             870.1     24         24.4      242     1,541.4
2008        89          777.0        57      223.6     78           1,157.4     16         24.1      240     2,182.2
2009        92          644.3        98      735.0     54             788.2     19        216.3      263     2,383.8
2010        97        2,161.8        77    1,524.3     28             279.8     13         54.6      215     4,020.5
2011        29          270.8        12      143.6      9             376.7      1         18.0       51       809.1
Totals     764      $7,821.1        646   $4,062.0    414          $5,575.8    180       $476.6    2,004   $17,935.5
*Not-to-exceed amounts are in millions.




                                                            32 

Appendix D. Definitization Modifications Issued and Definitization
Amounts on Letter Contracts for FY 2004 Through June 9, 2011
                 Army                     Navy                     Air Force          Other DoD Agencies
Fiscal                                                                                                       Total
         Number     Amount*        Number    Amount*        Number        Amount*     Number    Amount*              Amount*
Year                                                                                                        Number
2004       37            $438.8      13           $763.9      11              $55.2     1            $.7     62       $1,258.7
2005       119             741.0     14            838.5      44              348.7     2             3.7    179       1,932.0
2006       91            1,002.9     12            705.9      27              135.8     5             6.5    135       1,851.1
2007                       223.5     12             69.7      32            2,342.7     8             8.6    120       2,644.4
2008        66             358.3     15            380.2      41              701.7     2             4.5    124       1,444.7
2009        47             443.3     13            596.7      18              799.2     13           21.0    91        1,860.3
    68
2010        47           1,159.1     27            515.2      11              163.0     7            11.0    92        1,848.3
2011        16              32.0     2              66.0      2                43.4     1             2.0     21         143.5
Totals
           491          $4,399.3    108          $3,936.2    186           $4,589.7     39          $58.0    824     $12,983.1
*Not-to-exceed amounts are in millions.




                                                                   33 

Defense Procurement and Acquisition Policy Comments





                  Click to add JPEG file




                                 34
